<html>
<title> - HEARING ON CHAIRMAN'S DRAFT, H.R.</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
 HEARING ON CHAIRMAN'S DRAFT, H.R.----, ``THE COMMUNITY PROTECTION AND 
  HAZARDOUS FUELS REDUCTION ACT OF 1999,'' TO SAFEGUARD COMMUNITIES, 
LIVES, AND PROPERTY FROM CATASTROPHIC WILDFIRE BY AUTHORIZING CONTRACTS 
    TO REDUCE HAZARDOUS FUELS BUILDUPS ON FORESTED FEDERAL LANDS IN 
   WILDLAND/URBAN INTERFACE AREAS WHILE ALSO USING SUCH CONTRACTS TO 
 UNDERTAKE FOREST MANAGEMENT PROJECTS TO PROTECT NONCOMMODITY RESOURCES

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                    FEBRUARY 9, 1999, WASHINGTON, DC

                               __________

                            Serial No. 106-3

                               __________

           Printed for the use of the Committee on Resources
 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources


                      U.S. GOVERNMENT PRINTING OFFICE
 54-805-CC                   WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JOHN J. DUNCAN, Jr., Tennessee       PATRICK J. KENNEDY, Rhode Island
JOHN T. DOOLITTLE, California        DALE E. KILDEE, Michigan
WAYNE T. GILCHREST, Maryland         OWEN B. PICKETT, Virginia
JOHN PETERSON, Pennsylvania          RON KIND, Wisconsin
RICK HILL, Montana                   GRACE F. NAPOLITANO, California
BOB SCHAFFER, Colorado               TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
                                     ---------- ----------
                                     ---------- ----------
                     Doug Crandall, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                  Jeff Petrich, Minority Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held February 9, 1999....................................     1

Statements of witnesses:
    Coufal, Jim, President, Society of American Foresters........    12
        Prepared statement of....................................    29
    Coulombe, Mary, Director, Timber Access and Supply, American 
      Forest and Paper Association...............................    14
        Prepared statement of....................................    29
    Hill, Barry, Associate Director, Resources Community and 
      Economic Development Division, General Accounting Office...     4
        Prepared statement of....................................    33
    Payne, Larry, Assistant Deputy, State and Private Forestry, 
      United States Forest Service...............................    21
        Prepared statement of....................................    30

Additional material supplied:
    Text of H.R. ------..........................................   102
    Briefing Paper...............................................   119

Communications received:
    Forestry, Journal of, ``Where the FOREST Meets the CITY''....    55


HEARING ON CHAIRMAN'S DRAFT, H.R. ----, ``THE COMMUNITY PROTECTION AND 
  HAZARDOUS FUELS REDUCTION ACT OF 1999,'' TO SAFEGUARD COMMUNITIES, 
LIVES, AND PROPERTY FROM CATASTROPHIC WILDFIRE BY AUTHORIZING CONTRACTS 
    TO REDUCE HAZARDOUS FUELS BUILDUPS ON FORESTED FEDERAL LANDS IN 
   WILDLAND/URBAN INTERFACE AREAS WHILE ALSO USING SUCH CONTRACTS TO 
 UNDERTAKE FOREST MANAGEMENT PROJECTS TO PROTECT NONCOMMODITY RESOURCES

                              ----------                              


                       TUESDAY, FEBRUARY 9, 1999

              House of Representatives,    
                        Subcommittee on Forests    
                                 and Forest Health,
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2 p.m. in Room 
1334, Longworth House Office Building, Hon. Helen Chenoweth 
[chairman of the Subcommittee] presiding.
    Mrs. Chenoweth. The Subcommittee on Forest and Forest 
Health will come to order.
    Before we formally move any further, I want to introduce to 
you the new members of this Committee. Mr. Duncan is one of our 
senior members on the Resources Committee. He's subcommittee 
chair in charge of aviation on the Transportation Committee, 
and it is an honor for us to have him sharing his place on the 
Forests and Forest Health Subcommittee. Mr. Duncan comes from 
Tennessee.
    Mr. Wayne Gilchrest comes from Maryland, and I have served 
with Mr. Gilchrest for 4 years now on the Resources Committee. 
He brings to us some very critical thinking and astuteness that 
I look forward to working with him on.
    Mr. Hill, from Montana, of course, is one of our members 
who was with us last year. Welcome back, Rick Hill. And Mr. 
Sherwood from Pennsylvania. He's been involved in forestry 
business for a long time. And we're thrilled to have another 
Pennsylvanian on this Committee. And Mr. Robin Hayes from North 
Carolina. Again, really thrilled to have Mr. Robin Hayes on the 
Committee and look forward to all that you will add.
    So I want to welcome all of these new members to the 
Committee. I look forward to having our Democrat members with 
us at the next hearing. Likely we will be having a hearing when 
there will be votes called. We won't be voting today until 6 
p.m., so I think that we hopefully will be able to move through 
this hearing without too many interruptions.
    The Subcommittee, as you know, is meeting today to hear 
testimony on the Community Protection and Hazardous Fuels 
Reduction Act of 1999. Now, under rule 4(g) of the Committee 
rules, oral opening statements of the hearings are limited to 
the Chairman and the Ranking Minority Member.
    Since the Ranking Minority Member, Mr. Pat Kennedy, is not 
here today, the gentleman from Rhode Island, we will accept his 
opening statement in a written form. But this will allow us to 
hear from our witnesses sooner and help members keep to their 
schedules. Therefore, if any other members have statements, we 
would welcome them to be included in the hearing record under 
unanimous consent.
    According to the Forest Service, large areas of national 
forests in the interior West are in very poor health. Symptoms 
include tree stands that are too dense with crowded small 
trees, undergrowth and accommodated dead materials on the 
ground, and also the composition of trees has changed, with an 
increasing amount of fire intolerant trees replacing the more 
fire resistant species.
    The incidences of epidemic disease and insect infestation 
has also dramatically increased. In my district alone, hundreds 
of thousands of acres of forests have been devastated by a fur 
beetle outbreak. Aggressive and active forest management is 
needed at this time immediately to combat this infestation.
    In these dense stands where many small, dead and dying 
trees often form fuel ladders to the crowns of larger trees, 
wildfires have become large, intense and catastrophic. 
Catastrophic wildfires compromise the Forest Service's ability 
to implement congressional directives to manage national 
forests for multiple uses and for the sustained yield of 
renewable resources. These wildfires damage water supplies, 
adversely affect ambient air quality and destroy fish and 
wildlife habitat.
    Also, the damage caused by catastrophic wildfires to the 
soil sustainability reduces the ability of the land to support 
future stands of trees and greatly increases the potential for 
massive soil erosion. In addition, catastrophic wildfires pose 
hazards to human health, safety, and property. At the beginning 
of the century, a clear delineation existed between the urban 
centers and what was considered rural America. Now this no 
longer exists, because over time cities have grown into suburbs 
and suburbs have blended into what was once considered rural.
    This complex landscape has come to be known as the 
wildland/urban interface, forests and grasslands which are 
intermixed with housing, businesses, farms and other 
developments, posing new challenges for fire management and 
suppression.
    From fiscal year 1986 through fiscal year 1994, the 10-year 
rolling average of and costs for fighting fire grew from $134 
million to $335 million, or by 150 percent. It is now 
approaching $1 billion annually. In 1996, wildfires burned over 
6 million acres and cost nearly $1 billion to fight. While not 
the biggest fire season ever--in 1930 over 52 million acres 
were scorched--but the 1996 fire season is regarded by many 
fire experts as the most severely impacting.
    The largest contributing factor to this consensus was the 
fire intensity caused by the accumulated fuel buildup. 
According to a GAO report, congressional efforts to reduce 
these buildups are a race against time, and I quote, ``before 
damage from uncontrollable wildfires becomes widespread.'' The 
fires in Florida last year were a reminder of the serious 
nature of this problem.
    In the 105th Congress I introduced H.R. 2458, the Community 
Protection and Hazardous Fuels Reduction Act, to address 
reducing catastrophic wildfires that occur as a result of 
hazardous fuels buildup. I am not introducing that bill today, 
but rather a working draft of that bill, as I am interested in 
getting everyone's input. We have the ability, we have the 
technology and the obligation to resolve this issue. We simply 
need the political will, and I believe this legislation is a 
small, but much needed step in the right direction, and I will 
look forward to working with interested members from both sides 
as we move this bill forward.
    Before I move on to introduce the first panel, I do want to 
notice Ann Bartuska, who is here today with the Forest Service. 
I would like to recognize Ann and congratulate her for her new 
appointment as Director of Forest Management. Ann comes to this 
position with many years of experience, and I have worked with 
her and have great respect for her, and I look forward to 
working with Ann to find solutions to many of the problems that 
we face in our national forests. We welcome you, Ann.
    Now I would like to introduce the first panel of witnesses. 
It is my pleasure to introduce to you Mr. Barry Hill, Associate 
Director of the General Accounting Office. He is Resources 
Community and Academic Development Division head at the GAO.
    As explained in our first hearing, it is the intention of 
the chairman to place all outside witnesses under oath, and 
this is a formality of the Committee that is meant to assure 
open and honest discussion, and you have been before us so many 
times, Mr. Hill, you do understand this. It doesn't affect the 
testimony that is given. And I believe that all of the 
witnesses were informed of this before appearing here today and 
they have each been provided a copy of the Committee rules.
    Now, Mr. Hill, please rise. Raise your right hand. I will 
administer the oath.
    [Witness sworn.]
    Mrs. Chenoweth. Thank you. Mr. Hill, will you introduce 
your associate, please?
    Mr. Hill. Thank you, Madam Chairman. With me today is Chet 
Joy, who led our work on this project, and we also have to my 
right Charlie Egan and to my left Ross Campbell, who will be 
helping us with the charts that we will be showing today.
    Mrs. Chenoweth. Thank you, Mr. Hill, we will direct 
questions to you, and then you can call on whomever you wish.

    STATEMENT OF BARRY HILL, ASSOCIATE DIRECTOR, RESOURCES 
COMMUNITY AND ECONOMIC DEVELOPMENT DIVISION, GENERAL ACCOUNTING 
                             OFFICE

    Mr. Hill. Thank you. Thank you. It is a pleasure to appear 
again before this Subcommittee today to discuss our 
observations on the threat that national forest catastrophic 
wildfires pose to nearby communities in the interior West. If I 
may, I would like to briefly summarize my prepared statement 
and submit the full text of the statement for the record.
    Mrs. Chenoweth. Without objection, so ordered.
    Mr. Hill. I would like to begin my statement with a brief 
clip of a videotape provided to us courtesy of the Learning 
Channel.
    [Videotape.]
    Madam Chairman, this videotape illustrates what we believe 
is a very serious problem in the interior West, the dangers 
that arise when population and catastrophic wildfire exist 
together. This afternoon we will discuss what the problem is 
and why it exists, what is being done about it and what are the 
barriers to effective action. Let me start by discussing what 
the problem is.
    The Forest Service estimated in 1995 that about 39 million 
acres or about one-third of these forests are at high risk of 
catastrophic wildfires. Experts have estimated that the window 
of opportunity to take action before widespread damage occurs 
is only about another 10 to 25 years.
    On the basis of the best available information, efforts to 
resolve this problem by the year 2015, the midpoint of that 
window, may cost as much as $12 billion or about $725 million 
per year. However, the Forest Service's current plan to do so 
may leave as many as 10 million acres still at high risk at 
that time.
    The interior West region we are talking about is the dry 
inland portion of the western United States shown on the map to 
my left. For those of you who may not be able to clearly see 
these exhibits, they are also included as appendices to my 
formal statement.
    There are many reasons why national forests in this region 
are in their current state. Historically the region's lower 
elevation forests were subject to frequent, low intensity 
fires. The location of these frequent fires which are generally 
dominated by ponderosa pine are depicted in the exhibit to the 
right. Frequent fire generally kept the trees in these forests 
few in number and their undergrowth sparse, as shown in our 
next exhibit, which is a 1909 photograph of a ponderosa pine 
stand in the Bitterroot National Forest in Idaho.
    Many past human activities, including some prior to Forest 
Service management, eliminated these frequent fires. As a 
result, tree stands have become much more dense, as shown by 
our exhibit here on the right, which is a photograph taken from 
the identical spot 80 years later in 1989. The most significant 
contributor to this increase in tree stand density has been the 
agency's decades old policy of suppressing wildfires.
    Our next exhibit shows the change since 1910 in the number 
of acres burned annually by wildfires in national forests, over 
90 percent of which occurred in the interior West. You will 
notice that for about 75 years, fire suppression was very 
successful. However, in 1984, this turned around, and since 
then the number of acres burned annually has been increasing. 
The reason for this is because the increased stand density also 
caused increases in less fire tolerant species of trees, 
resulting in high accumulation of fuels for fires.
    Because of these accumulated fuels, fires are now much more 
likely to become large, intense and catastrophic wildfires. The 
increase in the number of large fires since 1984, and in the 
number of acres that they burn, which has more than quadrupled, 
is shown in our next exhibit. Since 1990, 91 percent of these 
large fires and 96 percent of the acres burned were in the 
interior West.
    A 1998 estimate of the locations of forests in the interior 
West that are at medium or high risk of catastrophic wildfires 
are shown in our next exhibit. Especially troubling are the 
hazards that these large fires pose to human health, safety and 
property, especially along the boundaries of forests where 
population has grown rapidly in recent years.
    Our next exhibit shows the recent population growth in this 
so-called wildland/urban interface. Areas shown in blue are 
counties where the population grew at a rate faster than 
average. You will notice that these areas are often 
concentrated around the national forests, which are shown in 
green. In addition, as shown in our next two exhibits, the 
costs to both prepare for and to fight these increasing numbers 
of catastrophic wildfires are also increasing rapidly, largely 
because of the higher costs in interface areas.
    As these exhibits show, the average annual cost of fighting 
fire grew from $134 million in 1986 to $335 million in 1994, or 
by about 150 percent. 95 percent of these costs were incurred 
in the interior West. Moreover, the costs associated with 
preparedness increased from $189 million in 1992 to $326 
million in 1997.
    It should be clear, Madam Chairman, that many communities 
adjacent to the national forests in the interior West face 
serious wildfire threats.
    The Forest Service has taken several steps to address this 
situation. It has refocused its fire management program to 
increase the number of acres on which to undertake fuels 
reduction activities and has restructured its budget to better 
ensure that funds are available to carry out this important 
work. The Congress has supported the agency in this task by 
increasing funds for fuels reduction and authorizing a 
multiyear interagency program to better assess problems and 
solutions, as well as demonstration projects to test 
alternative approaches for reducing fuels.
    However, we believe these efforts may fall short, partly 
because the agency's current plans will require it to continue 
devoting substantial resources to maintaining conditions on 
other forests that are currently at lower risk of fire. 
Moreover, it appears to us that the Forest Service does not yet 
have a cohesive strategy for overcoming four major barriers to 
reducing accumulated fuels.
    The first of these barriers is that all methods for 
reducing fuels can adversely affect achievement of other agency 
stewardship objectives. For instance, the use of controlled 
fires to reduce accumulated fuels is limited by the possibility 
that such fires often might get out of control and by the 
effects on air quality and the smoke from these fires. 
Alternatively, mechanical removal of fuels, includ-

ing through timber harvesting, is also limited by its adverse 
effects on watersheds and wildlife.
    Second, both the agency's fuels reduction program and its 
timber program contains incentives that tend to focus efforts 
on areas that do not present the greatest fire hazards.
    Third, the agency's timber sale and other contracting 
procedures are not designed for removing vast quantities of 
material with little or no commercial value. The final barrier 
to be overcome is the high costs of removing accumulated fuels. 
Fuel reduction activities are expensive and will likely have to 
continue indefinitely.
    In conclusion, Madam Chairman, the increasing number of 
uncontrollable and often catastrophic wildfires in the interior 
West and the growing risks they pose to human health, safety, 
property and infrastructure present difficult policy decisions 
for the Forest Service and the Congress.
    Does the agency request and does the Congress appropriate 
the hundreds of millions of dollars annually that may be 
required to fund an aggressive fuels reduction program? What 
priority should be established? How can the need to reinforce 
fire into these frequent fire forests best be reconciled with 
air quality standards and other agency stewardship objectives? 
What changes in incentives and statutorily defined contracting 
procedures will facilitate the mechanical removal of low value 
materials?
    These decisions should be based on a sound strategy. That 
strategy in turn depends on data being gathered under the 
Forest Service's and the Department of Interior's joint fire 
science program to be conducted over the next decade and 
subsequently integrated into individual forest plans and 
projects. However, many experts argue that the agency and 
Congress are in a race against time and that the tinderbox that 
is now the interior West simply cannot wait that long. Taking 
aggressive, strategic agency actions now would likely cost less 
than just allowing nature to take its inevitable course.
    Madam Chairman, this concludes my prepared statement. We 
would be pleased to respond to any questions that you or other 
members of the Subcommittee may have.
    [The prepared statement of Mr. Hill may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Mr. Hill. That was very 
interesting testimony.
    Mr. Hill. Thank you.
    Mrs. Chenoweth. And I want to congratulate you again on 
such a fine presentation.
    The Chair recognizes Mr. Duncan for questioning. And I want 
to remind members that Committee rule 3(c) imposes a 5-minute 
limit on questions. So we will be operating the lights. Thank 
you.
    Mr. Duncan.
    Mr. Duncan. Well, Madam Chairman, as you know, I am a 
little under the weather today, so I am not going to ask a lot 
of questions or say a lot today, and I don't have any questions 
at this point. But I do want to take this opportunity to say 
how pleased I am to be on this Subcommittee. I noticed in the 
last Congress, with great interest, that you conducted a very 
active and very interesting Subcommittee in the last Congress, 
and you and I have been good friends ever since you first got 
here. So I am very pleased to be serving with you.
    I read a few days ago in the Knoxville News Sentinel that 
the amount of land in private and commercial forests in 
Tennessee was now 50 percent; a little over 13 million acres. 
And that doesn't count where we have in my--I have a mainly 
urban-suburban district, but I also have the Great Smokey 
Mountains National Park and the Cherokee National Forest and 
other areas similar to that in my district.
    So I am very much looking forward to and interested in 
serving on what I feel is a very, very important Subcommittee, 
and I thank you very much.
    Mrs. Chenoweth. Thank you. The Chair recognizes the 
gentleman from Maryland, Mr. Gilchrest, for questioning.
    Mr. Gilchrest. Thank you, Madam Chairman, and I, too, 
appreciate being on the Subcommittee. I don't have a full range 
of forest acreage like we have seen on these charts and graphs 
in the State of Maryland, but it seems that every year I deal 
on at least the House floor with forestry issues, and so this 
is an attempt to be a more astute observer of these conditions 
and what Congress is attempting to do with these beautiful 
lands around the country.
    So I am here to learn a lot, Madam Chairman. I appreciate 
the opportunity to serve on the Committee. And you come from a 
rather jewel of a state, Idaho, where I spent a little time in 
the Boom Mountains between the Moose Creek River and the Lochsa 
River near Powell Ranger Station, a little place called Elks 
Summit, and it would be my goal to get back there again before 
the sun sets on my career in Congress. So maybe we can.
    I just have three quick questions. One is, does GAO have 
any recommendations--you made a statement in here that one of 
the problems of dealing with this fire situation between the 
wildlands and the urban centers is; if you burn it EPA might 
not allow permits based on Clean Air Act regulations. What is 
the status of that?
    And your recommendation to the Forest Service, burn when 
conditions are favorable to burn. You can't burn, I guess, when 
the forests is filled with 6 feet of snow, but neither do you 
want to burn in the forest when it is 100 degrees outside and 
everything is dry. So do you have any recommendations in that 
area?
    The second question is, it seems that you said that the 
Forest Service--I think I got this right--has more of a 
tendency to focus on areas where there is high value commercial 
timber, rather than real areas that are fire hazards.
    And the third question is, well, you have--you mentioned 
the fourth barrier that must be overcome in developing a 
cohesive strategy for undertaking effective fuel reduction 
efforts is their high costs. And if you could just address 
that.
    Mr. Hill. Okay. Let's start with the recommendations. We 
are finishing up work on an ongoing job we have in this issue, 
and we are planning to issue a report in the spring, probably 
in the April time frame and at that time we will have 
recommendations. We don't have any right now, because we are 
still waiting on some work that the Forest Service is doing 
regarding their plans for updating their estimate and 
developing a strategy and a priority in terms of how they are 
going to go about attacking the problem here.
    So the recommendations that we will be presenting in that 
report will be more in the lines of things I think the Forest 
Service has to consider or factors that have to be incorporated 
in any plan or strategy they have. And, certainly, paramount to 
anything that is done here is something that we did see in the 
draft bill, was basically just getting a handle on where are 
these high-risk areas, where are the areas of the high-risk 
forest versus the urban interface, and then having them develop 
some type of a plan or a strategy for how are we going to focus 
whatever efforts we do and target the work that they do to 
clear out some of the undergrowth and the fuel that is on the 
forest floor in order to mitigate or minimize the problem.
    Mr. Joy. I am just going to say, as Mr. Hill said, that 
that is probably the critical thing. And although we aren't 
commenting on the bill per se because it is not a bill yet, 
nonetheless, that is a critical aspect of it, which the Forest 
Service I guess later this month will be addressing. And once 
we have that in hand I think, as Mr. Hill said, we will be able 
to address that.
    The other point you brought up about the Clean Air Act and 
the EPA, is that right now the Forest Service and EPA are in 
sort of a 3-year experiment to look at different ways of 
handling that issue of smoke, and presumably----
    Mr. Gilchrest. Does there seem to be any flexibility? You 
have this huge danger of forest fires. One of the ways of 
getting rid of it is controlled burns, one of the obstacles to 
control burns is the Clean Air Act. When you burn the forest, 
smoke goes up, it has got to be different than what is coming 
out of a back of a car. I mean this stuff, it is particles.
    Mr. Joy. It has smaller particulate matter, which the 2.5 
micron thing--as stated earlier, persons in the Forest Service 
that we have spoken with and visited over the last year and a 
half in several forests--and they have all indicated that it is 
going to be very difficult to figure out a way around that or 
to figure out a way to make the two work together. But, you 
know, mother nature doesn't file with the EPA, and so that is 
another issue.
    With regard to focusing on the high value timber areas, it 
is true, as I think as our statement says, that one of those 
barriers is that there are two programs essentially, program 
areas, that deal with this problem of fuels. One is the timber 
program for mechanical removing, another is the fuels reduction 
program, which involves both mechanical removals and is for the 
controlled burning you mentioned, Congressman Gilchrest.
    Now, the difficulty with both of those is that the Forest 
Service has a goal for getting a lot of acres done under the 
appropriated fund for fuels reduction. It is only human nature, 
as the forest people at the ground level tell us, to go do the 
easy acres first, as many as you can, and that means doing less 
expensive ones. The ones around the urban areas are very 
expensive, so they are not getting to those.
    Under the timber program, there's also an incentive to not 
focus on the most difficult ones, that is, the most hazardous 
ones. The timber program has to pretty much try and pay for 
itself so it has to get larger timber out. That is not often 
the kind of material involved here.
    The last question about cost is that if you have to get rid 
of an awfully lot of material that has been accumulating, as 
carbon on the surface for many, many years, and it is not 
particularly valuable commercially, then we face a real 
challenge here of where does the money come from.
    And we have an estimate in our testimony. The CRS made a 
somewhat different, more limited, type one. We estimated the 
total. All of those numbers are pretty much in the ballpark. 
And they are a lot bigger than anybody currently in any form is 
contemplating spending at either end of the avenue to date, so 
far as I know.
    Mr. Gilchrest. Thank you. Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Gilchrest.
    Mr. Sherwood.
    Mr. Sherwood. Thank you, Madam Chairman. I am very 
delighted to be on this Committee and it is--I know you might 
be a little interested in the fact that we now have two 
Pennsylvanians. But Mr. Peterson and I represent the area that 
grows the finest hardwood saw logs in the world. We have the 
northern beech, birch, oak, maple, Pennsylvania black cherry. 
And so my experience has been around people who manage hardwood 
forests for profit, and they have to pay all the taxes and 
comply with all the laws, and they try to manage their forests 
over a long period of time. A hardwood forest is a long cycle, 
and yet they are able to do that and do their culling and their 
timber standing improvement with the revenues that are 
generated from the sale of the timber, and that would be the 
focus on my question.
    I understand that the material that you need to remove to 
prevent fire in the urban/wilderness interface area is of very 
little or of no value. But the Forest Service owns a hugely 
valuable resource in their timber. And it would--I would like 
to have someone talk to me about their ability to manage their 
timber, so that it would bring in enough revenue to also solve 
the problems that being the largest landowner in the country 
entails.
    Mr. Hill. That is a difficult question. Let me see if I can 
provide some meat to it. The problem you have here is exactly 
as you state, the material we are talking about is of low or no 
value basically. And the way the timber program is set up, you 
designate a sale area, you go in there and you harvest the 
timber, and there are various funds that the Forest Service has 
for going back and restoring those sale lands. And that seems 
to work rather well in a sale area.
    Unfortunately, the bulk of--the majority of this problem 
lies outside of designated sale areas where those funds really 
can't be used to clear out the undergrowth. That is where the 
cost comes in. The question always come up, why not use the 
timber program to help solve the problem, and to some extent 
that can be done. However, the problem is so large that you 
cannot rely on the timber program for doing the job.
    The numbers that we have show that timber sales were used 
to basically clear about 95,000 acres, which is less than 5 
percent of what they would need to do on a yearly basis in 
order to solve the problem. So although there's an opportunity 
there for using the timber program to help resolve some of this 
problem, it is not the sole solution. There's a lot of other 
things that would need to be done in order to resolve it in the 
long run.
    Mr. Joy. Congressman, if I might just add, it is not--I 
think it is agreed and I think we have stated that timber can 
be a useful mechanism for reducing fuel. One of the 
difficulties here is, though, that the forests have a number of 
other required uses by law, for wildlife, fish, et cetera, that 
limit the amount of timber that can be taken because of effects 
on them, and that is one aspect of it. And this second aspect 
of it--that limits how much you can expand it.
    Mr. Sherwood. I understand it. I am not for wholesale 
cutting to the timber, but all healthy forests have to be 
harvested from time to time. And I would think that there would 
be so much timber value that we would have money left over. And 
that is what--as I become a little more involved in this, that 
is the figure I would like to see addressed for the--or the 
theory I would like to see addressed.
    Mr. Joy. Noted.
    Mr. Sherwood. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Sherwood.
    I do want to assure the members of the Committee that my 
bill covers the national forests all over the Nation. And so I 
am just really thrilled to welcome our eastern members into the 
Committee, because indeed this bill will affect your--whatever 
national forests that you have in your state. It is a 5-year 
pilot program, and we will allow testing in also the eastern 
states, too.
    Mr. Hill, in your testimony, you said that there was 39 
million acres or nearly 40 million acres that are considered 
very vulnerable to high risk catastrophic wildfires. You also 
had a display that showed a lot of red, and I noticed, could we 
see that display again? There was a concentration of the red in 
Idaho.
    Mr. Hill. Northern Idaho.
    Mrs. Chenoweth. That had gotten my attention in northern 
Idaho.
    Mr. Hill. Yes, it does.
    Mrs. Chenoweth. Yes. Is that representive?
    Mr. Joy. Yes, Madam Chairman, that is the area that has 
been designated as--identified as being a high risk of 
catastrophic fire.
    But there is, Madam Chairman, one thing I would want to 
point out. This is not a map prepared by the Forest Service, 
nor it is by us either, but by in fact an outside organization, 
a private consultant for foresters. The Forest Service, as you 
know, is going to be presenting some other maps. I presume they 
won't look terribly different from this, however.
    Mrs. Chenoweth. All right. For the record would you mind 
identifying the outside source?
    Mr. Joy. Yes, that was, and I believe he has spoken before 
this Committee himself for the group, a study which was headed 
by, among others, Neil Sampson, who had testified here before, 
Dr. Neil Sampson.
    Mrs. Chenoweth. Fine, thank you.
    Mr. Hill, does the agency have a good understanding of 
where the boundaries of the wildland/urban interface really 
are, in your opinion?
    Mr. Hill. Not at this time. They are currently studying 
that situation right now, and they are in the process of 
defining what the urban interface is and mapping it. And the 
last we heard they had not even settled on a final approach yet 
in terms of how they were going to do this. But supposedly they 
will at least have a proposed approach in place, we expect by 
this spring.
    Mrs. Chenoweth. Good. I look forward to that.
    Mr. Hill. We do, too.
    Mrs. Chenoweth. Mr. Hill, the GAO has reported extensively 
concerning the lack of accountability within the Forest 
Service. Is this concern just financial in nature, or does it 
apply to the forest health concerns you testified to as well?
    Mr. Hill. I think it applies to everything. Accountability 
to us just--I mean, certainly there has been a lot of emphasis 
and focus placed on the financial management accountability 
problems that the Forest Service has. But I think there's also 
a problem that we pointed out in the past in terms of 
performance accountability. Being held accountable for what 
funds you are receiving and how you are spending those funds 
and what you are accomplishing with those funds.
    And I think that is a problem that we documented quite 
heavily in the past and in numerous Forest Service programs and 
areas.
    Mrs. Chenoweth. I think I saw a release today where we are 
in the hole $45 million on our timber funds. And I look forward 
to being a sustained unit within the Forest Service, the timber 
fund, once again, hopefully. I am an eternal optimist and I 
look forward to that happening again.
    Mr. Joy. Madam Chairman, in further response to your 
question about performance accountability, this is again where 
I think what Mr. Hill pointed out was so important--to have a 
good definition of where the wildland/urban interface is and 
what the hazards are within that so you can prioritize and 
establish some performance measures for what you are 
accomplishing; that is, how much are fuels being reduced where.
    Without those kinds of performance measures being very 
well-defined, then it is very difficult to tell whether 
progress is being made. And that is why our concern on that 
point. And there are lots of things you can buy with $45 
million besides the value of the timber.
    Mrs. Chenoweth. That is right. Very well stated.
    I want to ask you, gentlemen, do you have anything else you 
would like to add for the record?
    Mr. Hill. No, not at this time. But we are certainly 
looking forward to issuing our final report in early April, and 
that will paint the complete picture and provide 
recommendations.
    Mrs. Chenoweth. I was advised by Mr. Crandall, our director 
on the staff, that it would be available in April and I am 
really looking forward to it.
    Again, I want to thank you for your very valuable 
testimony. And at this time, this panel is excused.
    Mr. Hill. Thank you.
    Mr. Joy. Thank you.
    Mrs. Chenoweth. I will introduce our second panel of 
witnesses now as we are readying the table.
    Mr. Jim Coufal, President of the Society of American 
Foresters; Mary Coulombe, director, Timber Access and Supply, 
American Forest and Paper Association. Welcome.
    Now if the witnesses will please stand and raise your right 
hand, I will administer the oath.
    [Witnesses sworn.]
    Mrs. Chenoweth. Let me remind the witnesses that under our 
Committee rules they must limit their oral statements to 5 
minutes, but that your entire statements will appear in the 
record.
    The chairman now recognizes Mr. Coufal to testify.

    STATEMENT OF JIM COUFAL, PRESIDENT, SOCIETY OF AMERICAN 
                           FORESTERS

    Mr. Coufal. Thank you, Madam Chairman. My name is Jim 
Coufal, and I am President of the Society of American 
Foresters. With your permission I will summarize our statement 
and then hand in a written statement.
    Mrs. Chenoweth. Thank you.
    Mr. Coufal. Your opening statement and then the statement 
from Mr. Hill have very well painted the picture of the 
situation, the steps that had been taken, some of the problems 
that still exist, and so my comments will be relatively brief, 
because that has been so well done before me.
    I just want to say, first that the Society of American 
Foresters is a membership organization of nearly 18,000, and it 
constitutes the scientific and educational association 
representing the broad profession of forestry in the United 
States. SAF's primary objective is to advance the science, 
technology, education and practice of professional forestry for 
the benefit of society. Our preamble and code of ethics says 
that stewardship of the land is the cornerstone of our 
profession. So we are concerned with the biological situation.
    We also have a cannon that says we are ethically bound to 
advocate and practice land management consistent with 
ecologically sound principles, and this is all in the context 
of service to society, which I will probably mention again.
    I am especially pleased to be here today and I thank the 
Subcommittee for its continued support for the profession of 
forestry, and thank you, Madam Chairman, for this opportunity.
    I will make four brief points. And I think another reason 
for being brief will be apparent in the first point. The first 
point is this; that in September of 1997 the SAF provided 
comments on an earlier version of this bill. You and your staff 
have addressed our concerns and have produced a bill that SAF 
supports. Working together we believe has produced an improved 
bill, and again we thank you for that opportunity and look 
forward to future work together.
    The forests and communities that are the focus of the bill 
are too important to be embroiled in partisan politics. We 
believe this bill is a good faith effort to address a very 
serious problem and hope that it will attract bipartisan 
support.
    The second point, the Forest Service estimates that from 39 
to 40 million acres of forestland are at risk from catastrophic 
events, as we have earlier heard. We know that the agency is 
producing risk maps of the sort we have seen to describe the 
location of these areas and we eagerly await having that 
material in our hands so we can further analyze the situation.
    We believe that the current proposed bill provides an 
important tool to address some of those problems. The 
legislation provides an innovative funding mechanism, one that 
allows using the proceeds from harvesting activities solely 
designed to reduce hazardous fuels to perform other forest 
management activities that often cannot pay for themselves, the 
kind we also heard about earlier.
    We also believe the bill allows the Forest Service and the 
Bureau of Land Management the flexibility to make long-term 
investments in the forest while reducing the threat of 
catastrophic wildfire. And long-term investments is a very 
important point. Forests are not 1-year ventures or 2-year 
ventures but 80 or 100 or 200 years.
    Additionally we believe the bill focuses on the wildland/
urban interface, recognizing all the other areas, but we think 
this an area that deserves great attention since human lives 
and human property are at risk.
    Point three, the bill also seems consistent with aspects of 
SAF's upcoming report on the national forests and public lands 
administered by the Bureau of Land Management, a scholarly 
report that will be available in approximately 5 or 6 weeks, 
which we would be happy to share with you, Madam Chairman, and 
the Committee.
    While this report will address a range of issues 
surrounding the management of national forests, public lands, 
it will very likely recommend that Congress set clear and 
appropriate goals for these agencies, but the land managers be 
given appropriate decision, discretion, to implement those 
goals, and that Congress ought to find innovative funding 
mechanisms to support these kinds of activities.
    We believe this bill addresses all three of those issues 
appropriately, even if it is a pilot bill, and perhaps the 
first step towards greater things.
    Fourth, the bill is one tool to address the problem. The 
Forest Service and the BLM will need other tools and 
significant funding over a sustained period to address the 
hazardous fuels buildup in the national forests and public 
lands. Although this legislation is a welcome step in the right 
direction, the proceeds from these hazardous fuels reduction 
sales will not be enough to address all aspects of a very 
serious issue.
    The Congressional Research Service study estimated that the 
costs of reducing these fuel loads would be about $3.5 billion. 
The cost of reducing hazardous fuels and investing in these 
lands are quite high. The costs of doing nothing can be much 
higher.
    Thank you for the opportunity to testify, and we will also 
be providing a--and have provided copies of the October 1997 
issue of the Journal of Forestry, which addresses wildland/
urban fire issues, and I would be pleased to answer any 
questions. Thank you.
    [The prepared statement of Mr. Coufal may be found at the 
end of the hearing.]
    Mrs. Chenoweth. Thank you, Mr. Coufal.
    Madam, Mrs. Coulombe. We welcome your testimony.

STATEMENT OF MARY COULOMBE, DIRECTOR, TIMBER ACCESS AND SUPPLY, 
             AMERICAN FOREST AND PAPER ASSOCIATION

    Ms. Coulombe. Good afternoon, Madam Chairman and members of 
the Subcommittee. Thank you for this opportunity to provide the 
views of the American Forest and Paper Association on this 
working draft of the Community Protection and Hazardous Fuels 
Reduction Act.
    I am Mary Coulombe, Director of Timber Access and Supply 
for the American Forest and Paper Association. I am presenting 
my testimony today on behalf of the association's members, 
companies and allied groups. AF&PA members include forest land 
owners, manufacturers of solid wood products and producers of 
pulp and paper products. Our members own about 14 percent of 
the forest land in the United States, some of which is in the 
wildland/urban interface or abuts it.
    Chairman Chenoweth, we are very pleased to see your 
continued commitment to addressing the wildland/urban interface 
fuels issue through the consideration of this working draft. 
This bill addresses a part of the very serious situation of 
hazardous fuels buildup on the national forests due to a 
variety of factors, as we have heard. The wildland/urban 
interface area is part of a much larger area of forest land 
that is at risk of tree mortality from insects and disease and 
catastrophic wildfires. As we have heard, the Forest Service 
has previously testified that they believe over 40 million 
acres of national forest lands are at such serious risk.
    We believe that is a conservative estimate, and the number 
of acres at significant risk will continue to climb because of 
a lack of appropriate forest management on Federal lands. By 
appropriate forest management I mean the ability of the Forest 
Service to plan and conduct forest management projects in a 
timely and efficient manner in order to deal with serious 
forest health situations.
    The gridlock that has brought the Forest Service timber 
program to a standstill now affects its ability to adequately 
manage the national forest and insure healthy vigorous forests 
for future generations. There are many examples in our history 
when we as individuals or as a society have ignored serious 
situations, only to ultimately endure a catastrophic event 
before we are willing to take action. That is the situation in 
our view today.
    The buildup of hazardous fuels in the wildland/urban 
interface threatens lives, homes, commercial properties, as 
well as water, wildlife, recreational opportunities and scenic 
qualities. And as we saw with the catastrophic fires in 
Florida, it is not just a problem in the West. The AF&PA is 
very supportive of the Chief of Forest Service's direction as 
he has outlined in words regarding restoring and maintaining 
the health of forest lands managed by the Forest Service.
    We are concerned, though, that the programs of the Forest 
Service are not matching these words. If we knew what the fuels 
and fire conditions are in these interface areas and what the 
threats are to private and public properties and values, why 
can't the Forest Service do the necessary forest management 
activities to reduce the risks and threats of wildfire?
    Our association believes that it is irresponsible to follow 
the course of the zero cut timber extremists who would rather 
risk peoples lives, their homes and the forest, instead of 
managing forests for healthy conditions. This is akin to those 
who insist to let other countries destroy the environment 
rather than possibly managing our own human resources.
    Chairman Chenoweth, we are pleased that this legislation 
includes some innovative ways to finance products needed in the 
interface area. One feature of the legislation we think is 
particularly attractive is the opportunity for the Forest 
Service to share in the costs of the forest management project 
using funds from the program that most benefit the project. 
With innovation and will, these projects can represent a win-
win situation, a win for the environment and a win for local 
communities who waive benefit from opportunities this 
legislation will provide.
    We also believe that this legislation is complementary to 
the pilot stewardship contracting projects authorized in the 
1999 omnibus appropriations bill. Your bill will add to the 
tool kit for vegetation management to meet multiple objectives. 
We do have one concern, not with the legislation as you are 
considering, but with the capacity of the Forest Service to 
implement this legislation.
    The Forest Services lost a great deal of forestry and 
contracting expertise through retirements and downsizing. We 
are concerned that the Forest Service would spend a 
considerable amount of time in writing regulations, training 
Forest Service people, planning projects, doing the 
environmental analyses and meanwhile the risk will continue to 
grow. We are not suggesting the Forest Service shortcut any 
required processes, but the Forest Service must make these 
projects the highest priority at all levels of the organization 
or they simply will not happen.
    Thank you for taking the leadership on this important 
issue, Chairman Chenoweth. I will be happy to answer any 
further questions by you or the members of the Subcommittee.
    [The prepared statement of Ms. Coulombe may be found at the 
end of the hearing.]
    Mrs. Chenoweth. Thank you, Ms. Coulombe.
    The Chair recognizes Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Madam Chairman.
    I guess I can address this question to either one or both, 
two quick questions, in your opinion, what do you believe is 
the cause for the gridlock--I think those are your words, the 
cause for the gridlock in the Forest Service to prevent or not 
act on these potential catastrophic conditions? And the other 
question is, there's going to be some recommendations I guess 
that you have seen that are contained in the draft bill of the 
chairman, and there will certainly be some recommendation on 
the part of GAO. GAO's testimony, as I read it, says that it is 
potentially 20 years in the time frame that the Forest Service 
uses to implement a strategy or a program that will eliminate 
these catastrophic conditions in the wildlands/urban interface.
    Do you have a recommended time frame for implementing the 
program that is either suggested in the chairman's bill or what 
might be suggested in GAO?
    Ms. Coulombe. I'll take a first shot at answering that, Mr. 
Gilchrest. In my opinion, the cause of the gridlock--actually 
there are many causes to the gridlock. I think I would point to 
two particular things; one of them is the lack of connecting 
the various programs in the Forest Service, including the 
timber program, to the work that needs to be done here.
    Perhaps I might share that I spent 26 years with the Forest 
Service before I moved to the American Forest and Paper 
Association. I was a district ranger and a forest supervisor on 
the Plymouth's National Forest in California, and what I saw 
there was at the highest levels there needs to be a recognition 
that this is truly the catastrophic problem that it is, and 
that the funding must be requested from the Forest Service to 
the administration and then on to Congress.
    Mr. Gilchrest. So you are saying from your experience with 
the Forest Service could Secretary Glickman say these are our 
priorities, implement those priorities, would it be that 
simple? I mean nothing is simple, that could be a step in the 
right direction?
    Ms. Coulombe. I think that could be a step in the right 
direction, absolutely. I think that there also needs to be, as 
this bill does and as some of the other things do, innovative 
mechanisms for accomplishing the projects.
    I think the third thing that is in this case one of the 
most serious things is the amount of time and planning that it 
takes to actually accomplish anything on the ground in the 
Forest Service, and that is a result of people, it is a result 
of regulations and the planning requirements.
    It is just as if things are tied into knots. It is very 
hard to get from the conception of a problem to the 
implementation of doing something about it on the ground.
    I will pass the mike to Mr. Coufal. He make want to address 
this issue particularly.
    Mr. Gilchrest. If my time has not run out.
    Mr. Coufal. I am not sure that I will be adding anything to 
what Ms. Coulombe has said, but perhaps rephrasing it and 
perhaps being a little more blunt.
    First let me say that I think the men and women of the 
Forest Service are the among the finest forestry professionals 
in the world. They have great integrity and devotion to the 
resources and the people. But I have observed them for 40 years 
now as buffeted and turned around by conflicting laws and 
regulations, by administrative rules and regulations that are 
conflicting, by public values that are in great conflict as any 
I have ever seen or experienced. They are working in a fish 
bowl where people shoot at them from every direction. I cannot 
blame them for the level of detail that they need to work with 
for occasionally making a mistake or going slow. I think that 
is something that needs to be recognized and rectified.
    The second point I would make is that I have taken to 
saying forestry isn't rocket science, it is much more complex. 
It is a moving target of biology, physical environment, people, 
the spread of urban interface. There is nothing that you can 
say is fixed in time, in place; it just changes time after 
time. So it is not going to be an easy task, but it is one that 
we must get at immediately.
    Mr. Gilchrest. Thank you.
    Mrs. Chenoweth. Mr. Gilchrest, are you through?
    Mr. Gilchrest. First of all, that is a great quote. It is 
not rocket science, it is more complex. That is very good.
    Quickly, do you have any sense for the appropriate time 
frame for the implementation of this strategy to help prevent 
these wildfires, urban interface things?
    Ms. Coulombe. I would say what I don't think is an 
appropriate time frame, and that is if there is 40 million 
acres, and if the current funding levels are only going to 
allow a million acres at the most a year, that is 40 years. 
That is unacceptable.
    And I think if we are looking at some of the information 
that we have seen about the insect and disease potential 
mortality over the next 15 years, that we ought to be looking 
at a 15-year horizon. We really ought to be hearkening to what 
it is going to take, and let me go beyond the urban interface 
here, but in much of northern Idaho and other places, like the 
map showed, we will see the collapse of the forest.
    So it is that serious, in my view, and that means we can't 
wait 40 years.
    Mr. Gilchrest. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Gilchrest.
    Mr. Hill.
    Mr. Hill of Montana. I thank you, Madam Chairman.
    I think Mr. Gilchrest has certainly zeroed in on the 
problem. In essence, my understanding of this is that there is 
some conflict whether or not the Forest Service needs to have 
some specific authorizing language for it to move forward to 
put an emphasis on dealing with the fire hazard.
    In the last year's appropriation bill, we gave authority, I 
think, for 29 stewardship projects. This is in essence what one 
of the appropriate uses of the stewardship contracts should be. 
I know in Montana it has become politicized. They are trying to 
involve a large citizens' group rather than saying what does 
the science tell us.
    Do you believe that the Forest Service has the authority 
currently to undertake the steps that it needs to address the 
magnitude of the problem in the interior West without a 
separate authority that the Chairman would propose? I would ask 
either of you to respond to that.
    Ms. Coulombe. I believe that the Forest Service has a large 
extent of the authorities, plural, that it needs to do this. I 
think what is missing here, though, is some of the contract--
the innovative contracting mechanisms that are embedded in this 
bill that allows the trading of goods or services. The 29 
stewardship projects may or may not test the real needs to get 
at the problem we are talking about. Our understanding is they 
are small. They are boutique projects in many cases, and yet we 
are talking about thousands of acres that may need to be 
treated over long periods of time.
    We wholeheartedly support the stewardship pilot projects, 
and we have been encouraging the Forest Service to think beyond 
the small boutique projects and look at some projects which 
test large extensive areas over 5 to 10 years of time so we can 
really get a handle on whether or not those contracting 
authorities are going to be the assistance that we think that 
they are in helping getting this job done. So there is that.
    I think this bill in addition, as I said, creates another 
tool in the tool kit that is necessary in order to focus some 
attention and to allow a special fund, for instance, a special 
mechanism for the Forest Service to be encouraged, if you will, 
to go forward with these.
    Mr. Hill of Montana. I was not here during the questioning 
of Mr. Hill, but in the report he indicated that the 39 million 
acres that are in need of treatment would require about $700 
million per year of commitment. In your view does the Forest 
Service have the authority to move forward with the----
    Ms. Coulombe. No.
    Mr. Hill of Montana. Anything close to that?
    Ms. Coulombe. No.
    Mr. Hill of Montana. Do you know how much they proposed in 
fiscal year 1999 to spend on this issue?
    Ms. Coulombe. No.
    Mr. Hill of Montana. I believe it was about $65 million, 
about 9 percent of what the annual commitment is that is 
necessary, and that would be to resolve the problem by the year 
2015.
    Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Hill.
    Mr. Sherwood.
    Mr. Sherwood. Thank you.
    I am becoming overwhelmed by the size of the problem. You 
use the term ``the collapse of the forest.'' I wanted to ask 
you if you meant by that that the urban wilderness interface 
problem was a start on the fire situation, or that the forest 
generally was cluttered with underbrush and debris, because I 
see them as different problems a little bit. If that is true in 
urban areas, I could see possibly cleaning out mechanically, 
but if you are talking about 40 million acres, the cost and the 
scope of the mechanical cleaning of this debris to me would be 
of a magnitude that even the Federal Government can't do that.
    And I go back then to the fire situation, the set fires, 
and I wondered how--if that fire--I realize we have EPA 
problems, but if it is done in the wintertime when there is 
snow cover, isn't it a lot easier to control, but does it 
destroy your ladder, which is the objective? I realize that was 
a little rambling, but I have a couple of questions there.
    Mr. Coufal. Ms. Coulombe was the one who used the term 
``collapse of the forest,'' I believe, but I can take a quick 
crack at it. I think collapse of the forest is something that 
we need to think about in the sense that I can clearly imagine 
the world having forests long after I can imagine the world 
having people. The forest will go on. But the kind of forest 
that can provide the goods and services and values and 
aesthetics that we want, will it happen on all 40 million 
acres? Probably not. Will it happen in a given locality? 
Probably yes. If I am a citizen in that given locality, I want 
to know that my government is interested in taking care of my 
needs, not 40 years from now, but now, because the likelihood 
is probably just about equal in one spot as the other. So 
collapse of the forest, forest health is kind of part of the 
idea that it is much more complex. They are not easily defined, 
but there is a big prob-

lem that we have to start working on, even if we can't define 
it exactly, and that is a quick response, sir.
    May I take a moment for a little levity, I hope. I happen 
to be from New York. I thought we had the finest hardwoods in 
the world, sir.
    Mr. Sherwood. I take exception.
    Mr. Coufal. But the point is that ecological and political 
boundaries are different.
    Ms. Coulombe. I would like to address a couple of the 
points that you made.
    I don't think that when we talk about the urban/wildland 
interface that we are just talking about areas around big urban 
areas. We are not necessarily just talking about Santa Barbara, 
Oakland, Lake Tahoe, Boise, Boulder, those kinds of places.
    There are many, many places in our national forests that 
are being subdivided for residential use and for vacation 
homes. On the Plymouth National Forest where I was forest 
supervisor, there are huge tracts of private land within the 
forest that had been subdivided for residential homes, and very 
much surrounding those subdivisions did we have a situation 
with the urban/wildland interface where it represented serious 
problems with fuels buildup. It represented serious problems 
with being able to do anything about those fuels, and even more 
serious problems about having people understand that they were 
living in a situation in which they might lose their homes.
    So think beyond your traditional view of urban. I think 
this is very important. I think we are talking about areas all 
over the West that have subdivisions within them where we have 
property, homes, and people are living.
    Mr. Sherwood. Thank you.
    And the fire issue, is that a controlled scientific 
forestry technique today?
    Ms. Coulombe. Well, I can tell you it has been a long time 
since I worked out in the woods, but I think there are real 
experts when it comes to doing prescribed burning. I think I 
worked with some of those people. I think the situation, again, 
of having forest landscapes fragmented with dwellings and with 
people living there, as well as the smoke and air quality 
concerns, makes the idea of doing large, broad prescribed 
burning very, very difficult if not impossible in many areas.
    Mr. Coufal. I agree.
    Mrs. Chenoweth. Thank you, Mr. Sherwood.
    I do want to say with regards to the bill that is the 
subject of this hearing, we heard some very interesting 
testimony from both of you. There isn't 40 years to take care 
of this problem, if we cleaned up a million acres a year. $3.5 
billion is a startling number. But we hope to get a start with 
this bill to prioritize those areas that are the worst and to 
be able soon, much sooner than later, to be able to go in and 
protect private property and begin to protect not only private 
property, but also the integrity of the forest itself, 
hopefully being able to build fuel breaks and create fuel 
breaks and so forth.
    The 40 years that you have testified to, you know, it is 
not hard to calibrate that out at a million acres a year, and 
it is an overwhelming problem.
    I want to congratulate both of you on outstanding 
testimony, and I want to thank you for your help in the bill.
    I do want to ask Mr. Coufal, there are many reports, 
especially the GAO report, that questioned the accountability 
of the Forest Service. Do you worry about the agency's ability 
to administer these projects?
    Mr. Coufal. I do in the very same sense that I expressed 
earlier, Madam Chairman. That is that as an observer of the 
Forest Service, a professional observer of the Forest Service, 
I see them operating with an awful heavy load of conflicting 
laws, rules, regulations, things that have happened by 
accretion without necessarily clarifying what went on before, 
just an added burden. And in that sense I really think that 
they have a difficult time administering any of their problems 
because they have to answer to so many people, and Congress, 
which is natural, but also very difficult.
    Mrs. Chenoweth. Mrs. Coulombe, what are your thoughts on 
that?
    Ms. Coulombe. As I testified, I am very concerned about--
from a number of different perspectives on the agency's ability 
to do these projects. I really want to underscore the fact that 
my experience tells me that unless the agency at the highest 
levels decides that this is one of its highest priorities and 
that is communicated up and down the organization through a 
variety of mechanisms, that it will be very difficult to see 
these projects really come to fruition and test the kinds of 
things and pilot the kinds of things that you are hoping will 
happen.
    Mrs. Chenoweth. You testified to the fact that we don't 
have 40 years to wait. You have also confirmed in your 
testimony that we have 40 million acres that are in critical 
condition, seriously critical condition. If we continue at the 
pace that we have for the last few years, how do you see those 
numbers of acres increasing over the next 2 or 4 years if we 
don't begin, Ms. Coulombe?
    Ms. Coulombe. I am at a bit of a loss to answer that 
because we have been waiting for the information that Mr. Hill 
mentioned in terms of the acres of risk potential, both from 
catastrophic fire and from insect and disease, and I want to 
underscore that those are two aspects of this problem, not just 
the fuels buildup.
    My sense is that in the area of insect and disease, we are 
going to continue to see that problem grow, and we can--I think 
they can chart out pretty well what effects that has. In the 
case of the wildland/urban interface, any time we have got 
drought, any time we have got a lack of active management, you 
just continue to see it, to see the problem escalate. Again, 
the other aspect of this is we continue to see the urban growth 
boundaries grow. We continue to see subdivisions within 
national or adjacent to national forests. So the problem grows 
on that side as well as the problem within the Forest Service 
itself, so it has two dimensions.
    Mrs. Chenoweth. It does.
    Mr. Coufal.
    Mr. Coufal. Thank you.
    The 40 million acres at risk are, I am sure, not a 
homogeneous mass, and even within that group can be 
prioritized. We have talked about the wildland/urban interface, 
but more truthfully it is the wildland/rural interface. We 
talked about the problems with insects and diseases, and in 
making such prioritization I would think we want to look at 
where human lives and human property are at risk and give them 
the first attention.
    Secondly, I think we all recognize the allowable cut on our 
national forests have gone down significantly over the last 10 
years. Some don't need programs of this sort, they need 
recognition that there is honest opportunity for higher 
allowable cuts on the national forests.
    Mrs. Chenoweth. Thank you very much. I want to thank you 
both for your very valuable testimony, and we welcome any 
further addition that you would like to make within 10 days, 
and the staff may be asking you additional questions by mail.
    [The information may be found at the end of the hearing.]
    Mrs. Chenoweth. Thank you.
    Ms. Coulombe. Thank you.
    Mr. Coufal. Thank you.
    Mrs. Chenoweth. Now I will introduce our final witness, Mr. 
Larry Payne, who is the Assistant Deputy Chief for State and 
Private Forestry of the United States Forest Service.
    Mr. Payne, if you will please stand and raise your right 
hand.
    [Witness sworn.]
    Mrs. Chenoweth. Please proceed.

 STATEMENT OF LARRY PAYNE, ASSISTANT DEPUTY, STATE AND PRIVATE 
             FORESTRY, UNITED STATES FOREST SERVICE

    Mr. Payne. Madam Chairman and members of the Subcommittee, 
I appreciate being asked to come here today to testify on this 
draft bill for the administration. I would--as the others have 
done before me, I would like to request that my written 
testimony go into the record, and for the sake of time, I will 
just summarize it briefly.
    Mrs. Chenoweth. Without objection, thank you.
    Mr. Payne. As you said in your introduction, my name is 
Larry Payne, I am the Assistant Deputy Chief for State and 
Private Forestry.
    It is my understanding that we had some comment and some 
input on the previous draft bill back in September of 1997 in 
the 105th Congress, and we appreciate the work that you have 
done to address those concerns in the new revised version of 
the draft bill.
    We also want to make clear that there is implications in 
that for the Bureau of Land Management in your draft 
legislation, and I wouldn't want anything I say here today to 
be construed as speaking for the Bureau. This is just Forest 
Service and administration.
    We appreciate the modifications that you made in the past 
on this bill. We continue to have concerns on certain elements 
of the draft legislation, and I would like to summarize those 
if I could now and then explain to you, to the Madam Chairman 
and the Subcommittee, some efforts that we have under way that 
we think are quite helpful.
    We have four major points that I would like to cover. The 
first point is that we believe at the Forest Service that we 
have sufficient authority, both existing authority and some of 
the new expanded authorities, that we have to do a better job 
of meeting the objectives that you have in your draft 
legislation.
    We have what we consider substantive concerns on the cost 
effectiveness and the special funds provision of the draft 
legislation.
    In addition, we have some concerns on the definition of 
certain terms, like what exactly is wildland/urban interface, 
that is an area, and other witnesses talked about that earlier.
    And also we believe that the appropriations that are 
available to the Forest Service in different forms and 
different methods and the expanded authorities that we have 
been given or we expect to be given are adequate and sufficient 
to help us meet this need in fuel reduction.
    The conclusion of those concerns is that we believe that 
the bill, the draft legislation, is unnecessary at this time, 
and I would like to talk about some of the efforts that we have 
under way that we think are going to take us in a positive 
direction. One of those has already been mentioned today, and 
that is the forest risk health mapping that we are now doing 
where we are going to have on a map the high-priority, the 
high-risk areas mapped out for fire, insect and disease, 
wildland/urban interface areas, and threatened and endangered 
species. It is our effort to set priorities and focus efforts 
on where to meet the highest priority needs.
    Other efforts that we have under way, you could call 
current authorities with the Cooperative Forestry Assistance 
Act and with the Knutson-Vandenberg Act and the Brush Disposal 
Act. Among the three of those, they give us quite broad 
authorities, depending on, of course, the funding and the focus 
and prioritization of the agency. Those give us, we believe, 
sufficient authority to move on this.
    In addition, it has been mentioned here before we have 
stewardship contracting as a major investment in the Forest 
Service with some special authorities in 22 pilot projects that 
we will be trying in this coming year. In addition, we have six 
new stewardship projects that will be added in northern Idaho 
and Montana. It is our belief and our hope that we are going to 
learn a lot from these, and that to do anything on a broad 
basis now would be a bit premature.
    One other item. We have a new budget line item of $15 
million planned for the year 2000 for forest health treatment 
that will happen outside of the timber production areas, and we 
believe that will be helpful.
    In conclusion, Madam Chairman and Subcommittee members, we 
agree with the priority that your draft legislation gets at and 
the importance of it. Although we have serious concerns, we 
certainly support that priority. We think that there needs to 
be more analysis and more discussion; and for the reasons I 
mentioned earlier, we think that the bill is unnecessary at 
this time.
    I would be happy to answer any questions you may have at 
this time.
    Mrs. Chenoweth. Thank you, Mr. Payne.
    [The prepared statement of Mr. Payne may be found at the 
end of the hearing.]
    Mrs. Chenoweth. Mr. Gilchrest?
    Mr. Gilchrest. Thank you, Madam Chairman.
    Mr. Payne, the 22 stewardship contracting pilot projects, 
they deal specifically or in part with the draft legislation 
for the fuels reduction?
    Mr. Payne. They are a wide range of projects that deal with 
several treatments and several conditions that we are trying to 
address.
    Mr. Gilchrest. Are there some specifically for fire?
    Mr. Payne. Yes.
    Mr. Gilchrest. Does it deal with this vague term, depending 
on where you come from, I guess, urban/suburban/wildlands 
interface areas? Does it have anything to do with a few houses 
at risk because of forest fire or a whole new community that 
has recently been built?
    Mr. Payne. We have those in all kinds of conditions where 
we are testing those. Of the 28, there will be some in that 
urban/rural interface arena.
    Mr. Gilchrest. And some in that urban/rural interface arena 
that test how to deal with it?
    Mr. Payne. Yes.
    Mr. Gilchrest. Has that started yet, that pilot program?
    Mr. Payne. We will be ready to go on the bulk of those 
beginning this spring.
    Mr. Gilchrest. How long is a pilot project supposed to run?
    Mr. Payne. Depending on the projects, 3 to 5 years. We hope 
within the first 2 years we will learn a lot about how to work 
those and what new authorities we need above and beyond.
    Mr. Gilchrest. And that can be applied to the 30-40 million 
acres where there is a potential problem?
    Mr. Payne. That is one tool, so to speak, for that.
    Mr. Gilchrest. The forest risk mapping where you will get a 
lot of the data to help to prioritize the areas most at risk 
for the catastrophic fire, when will that be done?
    Mr. Payne. We are in the process of validating that 
information right now, and I would say from what I am hearing 
it will be a matter of weeks to a month. We are in the process 
of validating that.
    Mr. Gilchrest. Can you comment, Ms. Coulombe, and also Mr. 
Coufal, and also, I think, GAO made comments about your basic 
strategy to resolve--you never resolve the problem. We will 
always have this problem. But people who testified today are 
talking that it can take the Forest Service 40 years to do 
this. It can take the Forest Service 20 years before they come 
up with a strategy, test the strategy and implement the 
strategy. Can you comment on the Forest Service's ability to 
adequately complete the task at hand without using the GAO 
report because you feel you don't need it or without using the 
Chairman's bill? Does the Forest Service have gridlock, and can 
you get past that gridlock and implement a program?
    Mr. Payne. Let me attempt to answer that, and I will do so 
with all due respect for the panelists that spoke before me. We 
all have opinions.
    I believe that it is an immense problem nationally that we 
face, far more in the West than we do in the East. I have faith 
and I have quite a bit of confidence that we, the Forest 
Service, we, the Department of Agriculture, and other agencies 
and counties and States, there are many more of us that have to 
resolve this than just the Forest Service, but I believe we 
have the authority and the wherewithal, and when we get the 
commitment and the priority and the focus on this, I believe 
that it is manageable and resolvable, but it is much more than 
just the Forest Service. We do a lot of work with cities, towns 
and landowners.
    Mr. Gilchrest. I will close with this question. Do you see 
part of the problem as homes being built, permanent homes or 
second homes, on private land within a national forest? Is that 
a problem from your perspective as far as where they build and 
droughts and catastrophic fires, and is there any way to 
prevent that?
    Mr. Payne. It is definitely part of the problem, and I 
don't know if prevention is the answer, but working with the 
landowner is. My brother has a place in Spokane that is the 
wildland/urban interface; and my sister is in Coeur d'Alene and 
my parents in Missoula, and all three of them are in that 
environment you describe. It is part of working with the 
landowner and their responsibility to manage some of their own 
lands, though, and that is what we try to work with, landowner 
education in those areas. It is definitely a problem.
    Mr. Gilchrest. We will have lunch sometime in Lolo Pass.
    Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Gilchrest.
    Mr. Sherwood.
    Mr. Sherwood. Good afternoon.
    Do you basically agree or not with the statement of the 
three people that were on before you about what a serious 
problem we have here?
    Mr. Payne. I agree that it is a serious problem. I use the 
word immense, too. It is a large and complex problem also, yes. 
I agree with that.
    Mr. Sherwood. Well, I was paying attention before, I think, 
but it doesn't appear to me that it is a problem that the 
Forest Service has a particularly active role in trying to do 
something about. Now, if I oversimplified that, you can help me 
with it.
    Mr. Payne. I think perhaps you might have oversimplified it 
a bit. It is also a matter of opinion as to how fast we are 
going to resolve the issue. The Forest Service is in the 
process of targeting units of measure like acres burned and 
trying to focus our attention on the outcomes that we are 
really after. It isn't enough anymore to go burn 10,000 acres, 
it is more important to burn that 30, so we are developing 
performance measures that are going to shift our priorities 
away from some of the traditional measurements and towards some 
of those things that are really high priority, very sensitive 
areas.
    Back to what I said earlier, I have some faith in some of 
the things that we are doing right now to refocus our efforts.
    Mr. Sherwood. And you used the term ``burn''?
    Mr. Payne. That is part of my upbringing in the Forest 
Service. There are many ways to treat hazardous fuels 
mechanically. There is prescribed fire, small forest products 
sales. I use ``burn'' sometimes as the first one when I talk, 
but there are a variety of methods.
    Mr. Sherwood. It seems to me that we all agree that we have 
a very serious problem, but I am hearing that you don't think 
you need help in solving the problem, but I haven't heard 
enough from you as to what you are doing about it for me to 
agree with you.
    Mr. Payne. Okay. Let me--I am not sure I can address that 
in the short time I have, but we do need help. We need help 
from the Congress, from the States, from other Federal agencies 
like EPA. We are not in it alone. It is too big of a job. If we 
have support in our funding and in our pilot tests for these 
projects that we are implementing, we get continued support for 
our budget line item of $15 million in the 2000, and many of 
those things that we are trying to push forward to get ahead 
using the existing authorities that we have, we think that the 
legislation that is drafted, what we are here today for, is 
unnecessary at this time.
    We would like some more time to put into practice what I am 
saying here today.
    Mr. Sherwood. What specifically do you think you could 
accomplish with that $15 million?
    Mr. Payne. That is going to give us--that is not the total 
answer. Again, it is one more tool, but it will allow us to do 
some forest health treatments. It could be thinning to doing 
some watershed restoration work, to removal of material, and 
there will be probably several treatments that we can use that 
for.
    Mr. Sherwood. But if we have a problem of the magnitude 
that we have been told earlier, what percentage of that problem 
would that get us on the road to?
    Mr. Payne. From a percentage standpoint it is not actually 
that large. We are still counting on, and as you look at this 
over the long term, we are probably doing probably close to 
1.5, 1.4 million areas a year in fuel treatment. In the outer 
years we need to be doing about 3 million acres a year. When we 
plan it out over that length of time, that is where the 
significant impact will come from.
    Mr. Sherwood. One final question. How effective do you see 
the link between timber sales and timber sale revenues and the 
mechanics of your timber contracting to help solve this 
problem? In other words, A, you either have the revenue from 
the timber sales; or, B, we get the people when they harvest a 
block in this area to treat a block in this area. What do you 
think of that? In the East when you sell a piece of timber, 
they leave you with the roads.
    Mr. Payne. The Knutson-Vandenberg Act and Brush Disposal 
Act gives us the authority and funding to treat those areas 
connected to timber sales, so I would quickly say that they do 
help. The timber sale program, of course, is going down.
    Mr. Sherwood. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Sherwood.
    Mr. Payne, I want to recall back 4 years ago in this 
Committee when we heard the Forest Service testify that there 
was a forest health plan called the Western Forest Health 
Initiative, and that that plan would take care of this problem. 
We haven't seen any on the groundwork to speak of at all, and 
what has happened in that 4 years is that it appears the 
problem has grown exponentially. So we are hearing today 
testimony from Mr. Coufal and Ms. Coulombe and from your own 
chief that say there are 40 million acres of high-risk forest. 
I hear you testify to the fact that you are moving ahead with 
another plan now.
    You know, I feel like the Chairman is on the horns of a 
dilemma. I don't know whether to ask for more funding for the 
Federal Forest Service or less funding. If we give you more 
funding, what are you going to do with it? If we give you less 
and try to get you to focus more on the States to take care of 
their own forests, maybe that is a better way to go. I am 
asking for the rubber to meet the road. I want to see a plan. I 
am hearing you testify that you are moving on it, but is your 
mapping done, for instance?
    Mr. Payne. Very close. We are validating the data right 
now. It is my understanding that we have a hearing before you 
on the 24th, I believe.
    Mrs. Chenoweth. Will the mapping be finished by the 24th?
    Mr. Payne. It is my understanding that it will be.
    Mrs. Chenoweth. It is your understanding?
    Mr. Payne. The last I heard it would be.
    Mrs. Chenoweth. The buck stops with you. Will you have it 
ready on the 24th?
    Mr. Payne. I will say yes.
    Mrs. Chenoweth. We gave you expanded authority on only 28 
pilot projects. This bill covers much more than that. Can you 
give me the total acres that are covered by the pilot projects, 
the 28 pilot projects?
    Mr. Payne. I can't off the top of my head right now. If you 
give me a moment, I can ask one of my assistants.
    Mrs. Chenoweth. I will.
    Mr. Payne. Thank you.
    I am told that we don't have the acreage numbers with us. 
We will provide that, but whatever number we do provide, it is 
not a large amount of acres. They are just tests so we can 
learn what changes we might need to pursue in contracting. We 
will provide that.
    [The information may be found at the end of the hearing.]
    Mrs. Chenoweth. So you do recognize that this bill gives 
you authority far beyond the 28 pilot projects we gave you in 
the appropriations bill?
    Mr. Payne. Oh, yes, Madam Chairman.
    Mrs. Chenoweth. So based on the fact that we heard 
testimony on the record today that some of our forests are in 
near collapse, and I know in northern Idaho we are truly there, 
I am very alarmed. I would hope that you would welcome this new 
authority, and I hope that in time as we mature the bill, that 
you will welcome it, because we need an active, on-the-ground 
managing Forest Service to bring us out of the swamp that we 
really are in with our national forests, and it is being widely 
recognized now. So I look forward to your cooperation in 
working with you.
    Mr. Payne, in your testimony you did state that your 
current budget sufficiently funds the agency's ability to cover 
these high-priority areas that this bill would provide for you? 
Can you give us a list of the high-priority areas, including 
those six projects in northern Idaho that the Chairman is 
particularly interested in, as well as all of them? Can you do 
that?
    Mr. Payne. I can do that, but not at this time.
    Mrs. Chenoweth. The GAO did suggest that you cannot do it 
now. Will you have it ready for the next hearing?
    Mr. Payne. On the 24th?
    Mrs. Chenoweth. Yes.
    Mr. Payne. To have the specific pilot project lists?
    Mrs. Chenoweth. Yes.
    Mr. Payne. I will do that.
    Mrs. Chenoweth. That is good, because the appropriations 
bill was passed quite a while ago.
    Now, Chief Dombeck continues to say that 39 million acres 
are at high risk for catastrophic fire, and this 39 million 
acres constitutes one-third of all of the forested acres 
managed by the Forest Service. One-third of your jurisdiction 
is now considered in a catastrophic situation. In your 
testimony you stated the administration's fiscal year 2000 
budget adequately funds restoration activities on these lands 
by adding $15 million to those activities, yet the Chief has 
stated that hundreds of millions of dollars will be needed to 
go into restoration activities. We heard today testified to 
that it would take no less than $3.5 billion. That just about 
knocked me off my chair; $3.5 billion to restore our forests in 
adequate time to save our forests. How do you reckon with the 
conflict in your testimony compared with the statements by your 
Chief compared with what we heard today?
    Mr. Payne. Let me back up, Madam Chairman. I don't want to 
leave the impression that what we got this year will fix the 
problem. My point is that over time, with the authorities and 
the appropriations that are available to us, they are 
sufficient for us to make adequate progress on the problems. I 
would not say that for this year alone.
    I am saying if we refocus our priorities in the agency, and 
fully utilize the authorities that we have, and get support 
from all of those many people that we talk about, that we--it 
is unnecessary for us to get the bill that you suggest. So it 
is not a 1-year statement, it is over time.
    Mrs. Chenoweth. Mr. Payne, I have many, many more questions 
to ask you, but I see that I have the red light on, too, and I 
will just close with one more question and submit the other 
questions to you in writing. You may want to address some of 
the questions on the 24th, otherwise you may answer them in 
writing, as you know.
    [The information may be found at the end of the hearing.]
    Mrs. Chenoweth. My final question is: You stated that our 
definitions of wildland/urban interface and hazardous fuels 
buildup are too broad. This bill is still only in a draft 
state, so I would appreciate your suggestions in defining these 
terms better. Would you mind submitting your definitions for 
these terms soon so we can begin to work on them?
    I believe that if we are going to have a functioning Forest 
Service, you are going to need broader authority. You will need 
to be funded, but I want to know that the Forest Service is 
ready to han-

dle it. So would you commit to me to have those definitions 
ready for us by the 24th or even sooner, let's say within 7 
working days?
    Mr. Payne. I can certainly share with you in a general 
sense or in writing at a later date our best current research 
to date on what that urban interface is.
    [The information may be found at the end of the hearing.]
    Mrs. Chenoweth. Thank you, Mr. Payne, and I do want to 
welcome you in the Committee. If you sense a bit of urgency 
from the Chairman and other members of the Committee, I think 
you can understand that when we are faced with testimony and 
on-site, on-the-ground observations on my part, that there is a 
real sense of urgency, much more so than there ever has been 
before. So I look forward to working with you, and welcome.
    Mr. Payne. Thank you.
    Mrs. Chenoweth. Mr. Gilchrest, do you have any other 
questions?
    Mr. Gilchrest. I had a question about the fires in Florida. 
Was the main cause of that fire drought or forest management or 
a combination? What was the ratio between Federal, State and 
private land?
    Mr. Payne. I am going to have to ask for some help on that 
question, Mr. Gilchrest.
    The answer I was given was 12 percent Federal lands; and 
yes, indeed, it was a combination of drought and the vast 
vegetation and urban interface in Florida. That was quite an 
event.
    Mr. Gilchrest. Thank you.
    That is not one of the pilot areas, Florida? You said Idaho 
and Montana.
    Mr. Payne. We have six new ones in northern Idaho and 
Montana. The other 22 are various places around the West.
    Mrs. Chenoweth. We will be holding a hearing in Florida in 
the middle of March on those fires, so it will be very 
interesting.
    Mr. Gilchrest. Thank you. The Chairman gave me this time, 
and I really appreciate it, Helen.
    The issue about the 3-year--is it a 3-year study with EPA 
to determine the impact of controlled burns on the emissions 
that will help determine how to do that as a tool, use it as a 
tool?
    Mr. Payne. Let me ask for some assistance on that one. I am 
not personally familiar with the specifics.
    We are not sure of the exact time frame, but the study is 
to look at the impacts of an increased prescribed burning 
program and the impacts on the social side for towns and 
communities. We would be happy to answer that question more 
thoroughly in writing.
    [The information may be found at the end of the hearing.]
    Mr. Gilchrest. We will follow up.
    Mr. Payne. Please do.
    Mr. Gilchrest. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Gilchrest.
    I want to thank the witnesses for their testimony and the 
members for their questions. If there are no further questions, 
the Chairman again thanks the witnesses and the members, and 
this Subcommittee stands adjourned.
    [Whereupon, at 3:51 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
 Statement of James E. Coufal, President, Society of American Foresters

    Madam Chairman, my name is Jim Coufal, President of the 
Society of American Foresters (SAF). The almost 18,000 members 
of the Society constitute the scientific and educational 
association representing the profession of forestry in the 
United States. SAF's primary objective is to advance the 
science, technology, education, and practice of professional 
forestry for the benefit of society. We are ethically bound to 
advocate and practice land management consistent with 
ecologically sound principles. I am especially pleased to be 
here today and I thank the Subcommittee for its continued 
support of professional forestry. I thank the Chair for the 
opportunity.
    In September of 1997, we provided comments on an earlier 
version of this bill. You and your staff, have addressed our 
concerns and have produced a bill that SAF supports. Working 
together has produced an improved bill.
    The forests and communities that are the focus of this bill 
are too important to be embroiled in partisan politics. We 
believe this bill is a good faith effort to address a very 
serious problem, and hope that it will attract bipartisan 
support.
    The Forest Service estimates that 40 million acres of 
forestland are at risk from catastrophic events. The agency is 
currently producing risk maps to describe the location of these 
areas, and we eagerly anticipate the release of that 
information. This bill provides an important tool to address 
some of those problems. The legislation provides an innovative 
funding mechanism of using the proceeds from harvesting 
activities solely designed to reduce hazardous fuels to perform 
other forest management activities that cannot pay for 
themselves. The bill allows the Forest Service and the Bureau 
of Land Management (BLM) the flexibility to make long-term 
investments in the forest while reducing the threat of 
catastrophic wildfire. Additionally, the bill focuses on the 
wildland urban interface, an area that deserves great attention 
as human lives are at risk.
    The bill also seems consistent with aspects of our upcoming 
report on the national forests and the public lands 
administered by the BLM. While this report will address a range 
of issues surrounding the management of national forests and 
public lands it will likely recommend that Congress set clear 
and appropriate goals for these agencies, that land-managers 
are given appropriate discretion to implement those goals, and 
that Congress ought to find innovative funding mechanisms to 
support those activities. This bill addresses all three of 
those issues appropriately.
    This bill is one tool to address this problem. The Forest 
Service and the BLM will need other tools and significant 
funding over a sustained period to address the hazardous fuel 
buildup on the national forests and public lands. Although this 
legislation is a welcome step in the right direction, the 
proceeds from these hazardous fuels reduction sales will not be 
enough to address all aspects of this very serious issue. A 
Congressional Research Service study estimated the cost of 
reducing these fuel loads at $3.5 billion. The cost of reducing 
hazardous fuels and investing in these lands are quite high, 
but the cost of doing nothing is higher still.
    Thank you for the opportunity to testify. I am also 
providing copies of the October 1997 issue of the Journal of 
Forestry which addresses wildland urban fire issues. If you 
have any questions, I would be happy to answer them.
                                ------                                


   Statement of Mary J. Coulombe, American Forest & Paper Association

    Madam Chairman and Members of the Subcommittee:
    Thank you for the opportunity to provide the views of the 
American Forest & Paper Association on the Community Protection 
and Hazardous Fuels Reduction Act. I am Mary J. Coulombe, 
Director of Timber Access and Supply for the Association. I am 
presenting my testimony today on behalf of the Association's 
member companies, associations, and allied groups. AF&PA 
members include forest land owners, manufacturers of solid wood 
products, and producers of pulp and paper products. Our members 
own about 14 percent of the forest land in the United States, 
some of which is in the wildland/urban interface or abuts it.
    Chairman Chenoweth, we are pleased to see your continued 
commitment to addressing the wildland/urban interface fuels 
issue through reintroduction of this bill in the 106th 
Congress. This bill addresses a part of the very serious 
situation of hazardous fuels buildup on national forest lands 
due to a variety of factors. The wildland/urban interface area 
is part of a much larger area of forestland that is at risk of 
tree mortality from insects and disease and catastrophic 
wildfires. The Forest Service has previously testified that 
they believe over 40 million acres of national forest lands are 
at such serious risk. We believe that this is a conservative 
estimate and the number of acres at significant risk will 
continue to climb because of a lack of appropriate forest 
management on Federal lands. By appropriate management, I mean 
the ability of the Forest Service to plan and conduct forest 
management projects in a timely and efficient manner in order 
to deal with serious forest health situations. The gridlock 
that has brought the Forest Service timber program to a 
standstill now affects its ability to adequately manage the 
national forests and ensure healthy, vigorous forests for 
future generations.
    There are many examples in our history when we as 
individuals or as a society have ignored serious situations, 
only to ultimately endure a catastrophic event before we are 
willing to take action. That is the situation today. The 
buildup of hazardous fuels in the wildland/urban interface 
threatens lives, homes, commercial properties, as well as 
water, wildlife, recreation opportunities and scenic qualities. 
And, as we saw with the catastrophic fires in Florida last 
year, this is not just a problem in the West.
    The American Forest & Paper Association is very supportive 
of direction that the Chief of the Forest Service has outlined 
in words regarding restoring and maintaining the health of the 
forest lands managed by the Forest Service. We are concerned 
though, that the programs of the Forest Service are not 
matching these words.
    If we know what the fuels and fire conditions are in these 
interface areas and what the threats are to private and public 
properties and values, why can't the Forest Service do the 
necessary forest management activities to reduce the risks and 
threats of wildfire? Our Association believes that it is 
irresponsible to follow the course of zero-cut extremists who 
would rather risk people's lives, their homes and the forest, 
instead of managing forests for healthy conditions. This is 
akin to those who insist that its better to let other countries 
spoil the environment rather than responsibly managing our own 
renewable resources.
    Chairman Chenoweth, we are pleased that this legislation 
includes some innovative ways to finance the projects needed in 
the wildland/urban interface area. One feature of this 
legislation that we think is particularly attractive is the 
opportunity for the Forest Service to share in the costs of a 
forest management project, using funds from the programs that 
most benefit from the project. With innovation and will, these 
projects can represent a win-win situation. A win for the 
environment and a win for local communities who may benefit 
from the opportunities this legislation will provide.
    We also believe that this legislation is complementary to 
the pilot stewardship contracting projects authorized in the 
1999 Omnibus Appropriations Bill. Its language authorizing the 
expansion of contracting authorities will add to the ``tool 
kit'' for vegetation management to meet multiple objectives and 
obtain desired future conditions.
    We do have one concern, not with the Legislation, but with 
the capacity of the Forest Service to implement this 
legislation. The Forest Service has lost a great deal of 
forestry and contracting expertise, through retirements and 
downsizing. We are concerned that the Forest Service would 
spend a considerable amount of time in writing regulations, 
training forest service people, planning the projects, doing 
the environmental analyses and meanwhile the wildfire risk on 
the interface lands will continue to grow. We are not 
suggesting that the Forest Service short-cut any required 
processes, but the Forest Service must make these projects the 
highest priority at all levels of the organization, or they 
will not happen.
    Thank you for taking the leadership on this important 
issue, Chariman Chenoweth. I'll be happy to answer any 
questions from you or other members of the Subcommittee.
                                ------                                


Statement of Larry Payne, Assistant Deputy Chief for State and Private 
   Forestry, Forest Service, United States Department of Agriculture

    MADAM CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:
    Thank you for the opportunity to appear before you today to 
discuss draft legislation for community protection and 
hazardous fuels reduction. I am Larry Payne, Assistant Deputy 
Chief for State and Private Forestry. The Forest Service 
testified for the Administration on a similar bill, H.R. 2458, 
at a hearing before this Subcommittee on September 23, 1997 
during the 105th Congress.
    I preface my remarks by saying that the Administration has 
not had sufficient time to analyze fully the most recent draft 
of this bill, thus my testimony reflects only our initial 
reaction. Also, we understand that this draft bill affects the 
Bureau of Land Management (BLM), and today's remarks should not 
be interpreted as a representation of BLM's concerns.
    In summary, we appreciate the modifications reflected in 
the draft bill which address some of our previous concerns. 
However, we continue to have concerns about certain elements of 
the draft bill.
    Our four major points of concern:

        We believe that we currently have sufficient authority to 
        accomplish most of the objectives of this draft bill;
        We have substantive concerns about the cost-effectiveness and 
        special funds' provisions in the draft bill;
        We continue to be concerned about the definitions for certain 
        terms, and;
        Appropriations are already available to address fuels treatment 
        priorities in the wildland/urban interface, including expanded 
        authority for use of the roads and trails fund for forest 
        health-related work, if needed.
    We believe that in combination these factors make the 
proposed draft bill unnecessary.

BACKGROUND

    The Forest Service has a number of efforts currently 
underway that place a priority on forest and ecological health. 
An ongoing forest health risk mapping effort has provided 
preliminary information on forest health risk factors related 
to fire, insect and disease, wildland/urban interface, and 
threatened and endangered species. This information, at a broad 
scale, will help identify areas of the country that are in a 
high risk category.
    Current authorities such as the Cooperative Forestry 
Assistance Act of 1978 provide the Administration with 
significant means to address the conditions of public lands as 
part of the urban interface issue. The Knutson-Vandenberg Act 
and the Brush Disposal Act of 1916 allow for forest protection, 
reforestation and restoration inside timber sale area 
boundaries and the abatement of fuels generated by harvest 
activities.
    The Forest Service has a national strategy for stewardship 
contracting. Pursuant to section 347 of the Department of 
Interior and Related Agencies Appropriations Act, 1999, we are 
currently examining a variety of new tools for addressing 
forest and ecological health and other ecosystem concerns 
through vegetative management. Twenty-two stewardship 
contracting pilot projects have been identified, and consistent 
with the terms of this legislation we will be adding up to 6 
new pilot projects in Region 1 (Montana and northern Idaho) of 
the Forest Service. A number of these projects are primarily 
designed to address hazardous fuels problems.
    For example, in the interior mountain West, the Upper Swan-
Condon project on the Flathead National Forest is designed to 
improve forest conditions, reduce forest fuels, and create 
stand conditions where prescribed fire can be used as a long-
term management tool. Another pilot project on the Lolo 
National Forest is utilizing an end-results contract to sell 
and harvest timber in a manner that will more closely 
approximate natural occurrences like wildfires.
    Some of the pilot projects explicitly address the hazardous 
fuels issue within a wildland/urban interface context. 
Illustrative are the Winiger Ridge and Mt. Evans projects in 
the Colorado front range. These projects are being carried out 
in cooperation with the Colorado State Forest Service.
    We expect to have these projects underway beginning this 
spring and will be monitoring and reporting the results with 
the public and Congress as we proceed. Until we have had an 
opportunity to complete and evaluate the results of these 
tests, and collaborate with the public on them, we feel it 
would be premature to propose broadly applicable solutions.
    Appropriations for fiscal year 1999 will provide sufficient 
funding in fire and forest health to address high priority 
areas of immediate concern, specifically wildland/urban 
interface areas. Also, the 1999 Appropriations Act authorized 
the use of the roads and trails fund for forest projects, if 
needed.
    Another potential solution to deal with flexibility in 
addressing forest stewardship needs is the new forest ecosystem 
restoration and improvement line item of $15,000,000 proposed 
in the fiscal year 2000 budget. This would enable the Forest 
Service to implement treatments such as thinning, partial 
cutting and other vegetative treatments to restore or maintain 
watershed health. This money would give managers flexibility in 
planning and integrating projects that are outside timber 
production areas and are in need of money to fund.

CONCERNS

    We have substantive concerns related to the draft bill that 
merit more analysis and discussion. The section that addresses 
contracting is vague as to how the cost efficiency 
determination is to be made. This section also would authorize 
using the receipts derived from the sale of forest products to 
offset some or all of the costs incurred by the purchaser in 
carrying out a required forest management project--in essence 
the trading of goods for services. It is likely that the draft 
bill would bear a PAYGO cost. The existing stewardship pilots 
are testing this concept with specific sideboards and improved 
performance-based contracting procedures in place, and will 
provide a basis for evaluating what new authorities, if any, 
are needed.
    Another section deals with the establishment and initial 
funding for ``Special Funds.'' The draft bill would require 
both the Secretary of Agriculture and the Secretary of the 
Interior to establish and maintain a special fund for planning, 
offering, and managing eligible forest products sales. The 
Special Funds would be funded in part by transfers of 
$10,000,000 from amounts available to the Seretaries for the 
reduction of hazardous fuels. We believe this is unnecessary. 
Funds within the appropriated budget for forest and ecological 
health protection, forest management, and fuels management are 
currently used for these types of projects. The creation of 
this special fund is unnecessary and would increase the work 
load and complexity in terms of budget and accounting by 
creating a new line item to manage and track. In a broader 
context, the creation of a new special fund or ``trust fund'' 
would raise the highly contentious incentives issue. For 
example, some will be concerned that unnecessary timber 
harvesting would be proposed in order to add to, or perpetuate, 
the fund. Other questions include: (1) whether payments to 
states are reduced; (2) if these new accounts would merely 
siphon funds away from the existing K-V Fund and other 
accounts; and (3) whether it is wise to initially reduce scarce 
appropriated funding for hazardous fuels reduction.
    Finally, the concerns raised in previous testimony 
regarding definition of terms remain unresolved. While some of 
the definitions, such as ``wildland/urban interface'' and 
``hazardous fuels buildup'' have been modified from previous 
versions, they are still vague and too broad to be practical. 
For example, the definition of wildland/urban interface is so 
broad that it would include anything from a single dwelling 
adjacent to forest lands to a high density urban housing 
development adjacent to or within forest lands. The agency 
strongly believes that broadening the definition would stretch 
our resources to areas that are simply not at risk of human and 
property losses, thereby jeopardizing our efforts in areas that 
are truly in danger.

CLOSING

    Madam Chairman, while we agree that protection of 
communities, lives, and property in wildland/urban interface 
areas is a national priority, and agree with the need to 
continue our efforts to reduce threats of high intensity 
wildfires to human life and property, we have serious concerns 
about some of the aspects of the draft bill. The budget does 
authorize the use of the K-V Fund from open sales for priority 
hazardous fuels reduction projects, regardless of the site 
where the funds were collected. This change will enable the 
Forest Service to begin addressing this urgent need. In 
addition, we believe that the 28 stewardship pilots that we are 
undertaking, and the public participation we will undertake as 
we implement them, will assess the need for changing any of our 
existing authorities. We also believe that existing 
appropriations adequately address our high priority needs, and 
that existing authorities are adequate to address forest and 
watershed health needs. For these reasons, we feel this draft 
legislation is unnecessary.
    This concludes my statement. I would be happy to answer any 
questions you or other members of the Subcommittee may have.
[GRAPHIC] [TIFF OMITTED] T4805.001

[GRAPHIC] [TIFF OMITTED] T4805.002

[GRAPHIC] [TIFF OMITTED] T4805.003

[GRAPHIC] [TIFF OMITTED] T4805.004

[GRAPHIC] [TIFF OMITTED] T4805.005

[GRAPHIC] [TIFF OMITTED] T4805.006

[GRAPHIC] [TIFF OMITTED] T4805.007

[GRAPHIC] [TIFF OMITTED] T4805.008

[GRAPHIC] [TIFF OMITTED] T4805.009

[GRAPHIC] [TIFF OMITTED] T4805.010

[GRAPHIC] [TIFF OMITTED] T4805.011

[GRAPHIC] [TIFF OMITTED] T4805.012

[GRAPHIC] [TIFF OMITTED] T4805.013

[GRAPHIC] [TIFF OMITTED] T4805.014

[GRAPHIC] [TIFF OMITTED] T4805.015

[GRAPHIC] [TIFF OMITTED] T4805.016

[GRAPHIC] [TIFF OMITTED] T4805.017

[GRAPHIC] [TIFF OMITTED] T4805.018

[GRAPHIC] [TIFF OMITTED] T4805.019

[GRAPHIC] [TIFF OMITTED] T4805.020

[GRAPHIC] [TIFF OMITTED] T4805.021

[GRAPHIC] [TIFF OMITTED] T4805.022

[GRAPHIC] [TIFF OMITTED] T4805.023

[GRAPHIC] [TIFF OMITTED] T4805.024

[GRAPHIC] [TIFF OMITTED] T4805.025

[GRAPHIC] [TIFF OMITTED] T4805.026

[GRAPHIC] [TIFF OMITTED] T4805.027

[GRAPHIC] [TIFF OMITTED] T4805.028

[GRAPHIC] [TIFF OMITTED] T4805.029

[GRAPHIC] [TIFF OMITTED] T4805.030

[GRAPHIC] [TIFF OMITTED] T4805.031

[GRAPHIC] [TIFF OMITTED] T4805.032

[GRAPHIC] [TIFF OMITTED] T4805.033

[GRAPHIC] [TIFF OMITTED] T4805.034

[GRAPHIC] [TIFF OMITTED] T4805.035

[GRAPHIC] [TIFF OMITTED] T4805.036

[GRAPHIC] [TIFF OMITTED] T4805.037

[GRAPHIC] [TIFF OMITTED] T4805.038

[GRAPHIC] [TIFF OMITTED] T4805.039

[GRAPHIC] [TIFF OMITTED] T4805.040

[GRAPHIC] [TIFF OMITTED] T4805.041

[GRAPHIC] [TIFF OMITTED] T4805.042

[GRAPHIC] [TIFF OMITTED] T4805.043

[GRAPHIC] [TIFF OMITTED] T4805.044

[GRAPHIC] [TIFF OMITTED] T4805.045

[GRAPHIC] [TIFF OMITTED] T4805.046

[GRAPHIC] [TIFF OMITTED] T4805.047

[GRAPHIC] [TIFF OMITTED] T4805.048

[GRAPHIC] [TIFF OMITTED] T4805.049

[GRAPHIC] [TIFF OMITTED] T4805.050

[GRAPHIC] [TIFF OMITTED] T4805.051

[GRAPHIC] [TIFF OMITTED] T4805.052

[GRAPHIC] [TIFF OMITTED] T4805.053

[GRAPHIC] [TIFF OMITTED] T4805.054

[GRAPHIC] [TIFF OMITTED] T4805.055

[GRAPHIC] [TIFF OMITTED] T4805.056

[GRAPHIC] [TIFF OMITTED] T4805.057

[GRAPHIC] [TIFF OMITTED] T4805.058

[GRAPHIC] [TIFF OMITTED] T4805.059

[GRAPHIC] [TIFF OMITTED] T4805.060

[GRAPHIC] [TIFF OMITTED] T4805.061

[GRAPHIC] [TIFF OMITTED] T4805.062

[GRAPHIC] [TIFF OMITTED] T4805.063

[GRAPHIC] [TIFF OMITTED] T4805.064

[GRAPHIC] [TIFF OMITTED] T4805.065

[GRAPHIC] [TIFF OMITTED] T4805.066

[GRAPHIC] [TIFF OMITTED] T4805.067

[GRAPHIC] [TIFF OMITTED] T4805.068

[GRAPHIC] [TIFF OMITTED] T4805.069

[GRAPHIC] [TIFF OMITTED] T4805.070

[GRAPHIC] [TIFF OMITTED] T4805.071

[GRAPHIC] [TIFF OMITTED] T4805.072

[GRAPHIC] [TIFF OMITTED] T4805.073

[GRAPHIC] [TIFF OMITTED] T4805.074

[GRAPHIC] [TIFF OMITTED] T4805.075

[GRAPHIC] [TIFF OMITTED] T4805.076

[GRAPHIC] [TIFF OMITTED] T4805.077

[GRAPHIC] [TIFF OMITTED] T4805.078

[GRAPHIC] [TIFF OMITTED] T4805.079

[GRAPHIC] [TIFF OMITTED] T4805.080

[GRAPHIC] [TIFF OMITTED] T4805.081

[GRAPHIC] [TIFF OMITTED] T4805.082

[GRAPHIC] [TIFF OMITTED] T4805.083

[GRAPHIC] [TIFF OMITTED] T4805.084

[GRAPHIC] [TIFF OMITTED] T4805.085

[GRAPHIC] [TIFF OMITTED] T4805.086

[GRAPHIC] [TIFF OMITTED] T4805.087

[GRAPHIC] [TIFF OMITTED] T4805.088

[GRAPHIC] [TIFF OMITTED] T4805.089

[GRAPHIC] [TIFF OMITTED] T4805.090

                                  <all>
</pre></body></html>
